          Examining the
          Inefficiencies
              of the
             Federal
           Workplace




Recommendations for Reform




September 2001                 By Martin J. Dickman
                                    Inspector General
                           Railroad Retirement Board

                                 Patricia A. Marshall
                     Counsel to the Inspector General
                                                       CONTENTS




Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 2


Hypothetical Scenario . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 3


Equal Employment Opportunity Commission Complaint- Legal Authority and

Claim Procedure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 4


Department of Labor - Legal Authority and Claim Procedure . . . . . . . . . . . . . . . . . . Page 7


Merit Systems Protection Board - Legal Authority and Procedure . . . . . . . . . . . . . . Page 9


Disadvantages with Current Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 11


         I. Delay . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 11


         II. Use of Progressive Discipline May Not Be Used in Cases With 

         Multiple Administrative Proceedings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 12


         III. Duplication of Effort - Fragmented Jurisdiction . . . . . . . . . . . . . . . . . . . Page 13


         IV. No Recourse for Meritless Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 14


Solution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 15


         I. Consolidation of Forums . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 15


         II. One Claim Adjudicator                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 17


         III. Simplified Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 17


         IV. One Appeal Right . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 18


         V. Required Statutory and Regulatory Changes . . . . . . . . . . . . . . . . . . . . . Page 20


Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Page 20





                                                            Page 1
                                     INTRODUCTION




       This paper illustrates the inherent redundancies, inefficiencies and inequities in the
current system for Federal employees contesting workplace issues and proposes a
solution.1 Employees and management may find themselves entangled in a burdensome
and complicated process which may take years to resolve. Employees can either
consecutively or simultaneously have claims which are based primarily on the same set of
facts adjudicated by the Equal Employment Opportunity Commission (EEOC), the U.S.
Department of Labor (DOL) and the Merit Systems Protection Board (MSPB). Under the
current system, Federal government management is often reluctant to take necessary
disciplinary action to contest dubious claims filed by employees. The result is a
bureaucracy that accommodates employees who cannot or will not perform their jobs
because, at times, management is unable to meaningfully and efficiently deal with the
problem and the ensuing burden of litigation.
       The complexities of the current system are best illustrated by using a hypothetical
scenario of an employee who pursues a dubious claim through each and every available
forum. Charts delineating the complexities of the system and a proposal for reform are
attached as Appendices.2 The solution outlined herein is not intended to be a panacea,
but to encourage discussion to resolve the problems in the current system.


       1
        In addition to the forums discussed in this paper, employees who are members
of a union may bring matters of dissatisfaction before an arbitrator rather than before
the Equal Employment Opportunity Commission or Merit Systems Protection Board.
 29 CFR 1614.301(a).
       2
         This paper is intended for dissemination to all interested parties in the private
and public sectors. This paper is provided for educational purposes only and is not to
be construed as legal advice. Any person faced with the issues discussed herein
should consult with appropriate legal counsel. This paper has no policy or regulatory
effect and confers no rights or remedies.

                                           Page 2
Hypothetical Scenario


       In this hypothetical, we will assume an employee with a dubious claim who exhausts
every forum and avenue of appeal legally available. The process begins with a secretary
who complains to her supervisor at a Federal agency (Agency) that she suffers from wrist
pain. This employee tells her supervisor that her doctor advised her that she suffers from
carpel tunnel syndrome in both wrists. The employee asks her supervisor to remove the
typing responsibilities of her job as a reasonable accommodation under the Rehabilitation
Act. Pursuant to the Rehabilitation Act, agencies are required to offer accommodations to
qualified individuals with a disability.3
       The supervisor asks the employee to provide medical documentation concerning the
expected length of time and severity of the condition. Despite multiple requests, however,
the employee fails to provide such documentation. In an effort to determine a reasonable
accommodation, the supervisor conducts an ergonomic review of the employee’s work
station which concludes that the work station conditions are satisfactory. The supervisor
then denies the employee’s request because the request is unsupported. The employee
subsequently claims an inability to perform an essential function of her job.
       The employee blames her wrist injury on her job at the Agency and files a claim for
compensation with the DOL Office of Worker’s Compensation. The Agency questions this
claim because, although the employee has not reported to work, she admits that she is able
to engage in other activities involving her wrist, such as bowling, playing the piano and
tennis. The employee also files a complaint with her Agency’s Office of Equal Opportunity
(OEO) asserting that the Agency violated the Rehabilitation Act by failing to accommodate
her disability. The employee receives several suspensions pursuant to the Agency’s policy
of progressive discipline and is removed from her position because she fails to report to



       3
       This act is similar to the American with Disabilities Act that covers non-federal
employees.

                                            Page 3
work. The employee files an appeal of her removal with the MSPB and files additional
charges with her Agency’s OEO alleging that her discipline was in retaliation for her
complaint with the agency’s office of equal opportunity. The specifics about each of the
employee’s claims are brought before the EEOC, DOL and MSPB discussed below.


Equal Employment Opportunity Commission Complaint- Legal Authority
and Claim Procedure


       The EEOC was established by Title VII of the Civil Rights Act of 1964 and enforces,
among other things, claims of discrimination, non-compliance with the Rehabilitation Act,
and retaliation for filing an action with the agency’s OEO.4 According to the hypothetical,
the employee claims the Agency did not fulfill its duties under the Rehabilitation Act
because it failed to accommodate her carpel tunnel disability. The employee also claims
that any subsequent discipline was in retaliation for her complaints to the Agency’s OEO.
       The EEOC process commences with the employee contacting her Agency’s OEO
office within 45 days of the alleged discriminatory action.5 The Agency OEO office offers
either counseling or Alternative Dispute Resolution, and the employee chooses
counseling.6 Because counseling does not resolve the employee’s complaint, the Agency
conducts a final interview and notifies the employee of her right to file a formal complaint
with the Agency. The employee files a formal complaint with the Agency and the Agency
acknowledges her complaint in writing. The Agency does not exercise its authority to
dismiss the employee’s complaint, but if it had, she could have appealed that decision to



       4
        42 U.S.C. Section 2000e-16 et seq. (Employment by Federal Government), 29
U.S.C. Section 791 et seq. (Rehabilitation Act).
       5
           29 CFR 1614.105(a)(1).
       6
       29 CFR Sections 1614.102(b)(2), 1614.105(b)(2). Counseling must be
completed within 30 days and ADR within 90 days. 29 CFR Sections 1614.105(d) and
(f).

                                           Page 4
the EEOC Office of Federal Operations.7 The Agency must therefore conduct an
investigation of the employee’s complaint within 180 days of when her complaint was
filed.8
          After the investigation is completed, the Agency issues a notice to the employee
and provides her with a copy of the investigative file. The employee is then allowed to
either request an immediate final decision on her complaint from the Agency, or request a
hearing before an EEOC administrative judge.9 If the employee requests an immediate
final decision from the Agency, the Agency issues a final decision consisting of findings
on the merits of each issue in the complaint and notifies the employee of her right to either
appeal the final action to the EEOC Office of Federal Operations (OFO) or file a civil
action in federal district court.10 If the employee requests a hearing, the employee and
Agency are allowed to serve requests for documents, interrogatories and notices of
depositions. At the hearing, both the employee and the Agency may call witnesses to
testify. An administrative judge presides over the hearing and must issue a decision
within 180 days of the hearing.11
          If the administrative judge had found discrimination, he or she would have ordered
appropriate relief and the Agency would have been required to issue a final order fixing
the problem within 40 days or the administrative judge’s decision would become the final
Agency decision.12 If the Agency issues an order notifying the employee that the Agency
will not fully implement the administrative judge’s decision, the Agency must also




          7
              29 CFR 1614.107.
          8
              29 CFR 1614.108(e).
          9
              29 CFR 1614.108.
          10
               29 CFR 1614.110(b).
          11
               29 CFR 1614.109 (I).
          12
               29 CFR 1614.109 (I).

                                            Page 5
simultaneously file an appeal with the EEOC OFO.13
       Assuming that the administrative judge issues a decision finding no discrimination,
the employee is dissatisfied with the decision and files an appeal with the OFO within 30
days of receiving the decision.14 The OFO accepts the case and both parties have an
opportunity to submit briefs.15 The OFO issues a decision affirming the administrative
judge’s decision and the employee files a request for reconsideration of this decision with
the OFO.16 The EEOC denies the employee’s request for reconsideration, and she files a
complaint in Federal Court within the 90 day limit. The employee also could have filed a
complaint in Federal Court if a decision was not rendered within 180 days of filing the
formal complaint with the Agency.
       Unfortunately at this point, the process starts over because the Federal Court
review consists of a trial de novo which means that the prior administrative decision is
suspended. The employee and the Agency again serve each other with requests for
documents, interrogatories and notices of depositions. Pre-trial motions are filed and
witnesses are called to testify at a trial before a jury (except in the case where only an age
discrimination complaint has been filed or where the parties agree to a bench trial). After
a finding in favor of the Agency by the jury, the employee appeals this decision to the
United States Court of Appeals. Following an unfavorable decision by the Federal
Appeals court, the employee files an appeal before the U.S. Supreme Court which rejects
her case. Because the employee requested a hearing before the EEOC and later filed a
complaint in Federal Court, the process took several years to complete.




       13
            29 CFR 1614.110(a).
       14
            29 CFR 1614.402.
       15
          The employee has 30 days from the date of filing of the appeal to submit a
brief. The Agency’s brief is due within 30 days from the due date for the employee’s
brief or 60 days from the date of her appeal if she chooses to not file a brief. 29 CFR
1614.403.
       16
            29 CFR 1614.405(b).

                                           Page 6
Department of Labor - Legal Authority and Claim Procedure


      The employee filed an occupational injury claim with the DOL Office of Worker’s
Compensation Programs claiming her carpel tunnel syndrome was caused by her job. The
employee was required to file a claim with the DOL rather than in the state or Federal court
system because sovereign immunity insulates the United States government from any
common law tort liability for the work-related injuries of its employees. Federal employees,
however, can receive compensation for injuries sustained on the job through the Federal
Employees’ Compensation Act (FECA) which provides for a limited waiver of sovereign
immunity.17 The FECA is operated by the DOL and is administered by the Division of
Federal Employees’ Compensation. The employee can receive payment from DOL
pursuant to FECA and the DOL seeks reimbursement from the agencies for these
payments.18
      The employee files her claim for compensation with the DOL within the 30 day
deadline.19 The employee’s supervisor completes a report in connection with the DOL
claims. He questions her claim because, while the employee claims her wrist pain
rendered her unable to perform her job, she admits she plays piano, tennis and attends
her bowling league each week. He consults with a medical doctor who advises him that
the employee should have been likewise unable to engage in other activities that could
aggravate her condition. Also, the medical doctor questions whether the Agency job was



      17
          The FECA was enacted in 1916 and provides compensation for wage loss and
for certain permanent bodily impairments incurred by civilian Federal employees as a
result of injury, illness or death sustained during the performance of their duties. 5
U.S.C. Section 8101 et seq.
      18
           5 U.S.C. Section 8147(b).
      19
         20 CFR 10.100. A traumatic injury claim must be caused by a specific event or
incident or series of events or incidents within a single day or work shift. Conditions
produced in the work environment over a period longer than a single workday or shift
constitute an occupational disease or illness claim. 20 CFR 10.5(q). The thirty day
deadline is found at 20 CFR 10.101(b).

                                          Page 7
the cause of the employee’s problem because she also engaged in other activities that
could have caused her medical condition. The employee fails to submit any medical
documentation to support her injury claim, therefore, the DOL denies her claim.
      The employee has several options when contesting the DOL’s denial of her claim.
She could request a hearing within 30 days, request reconsideration within one year, or
appeal to the DOL Employees’ Compensation Appeal Board within 90 days. Assuming
the employee requests a hearing from DOL, a hearings representative from DOL presides
over the hearing, questions the employee and allows the employee to add any additional
information before the conclusion of the hearing. While the Agency is allowed to send a
representative to a hearing, the representative attends primarily in the role of an observer
without the right to question the employee or make any argument. The Agency
representative, upon request of the employee, or the employee’s representative, may be
asked by the DOL hearing representative to give oral testimony at the hearing. The
employing Agency is not a party to the hearing, but it has an interest in the outcome
because it will ultimately reimburse the DOL for any medical and compensation claims.
The Agency, therefore, is entitled to a copy of the hearing transcript and allowed 20
calendar days to submit comments or additional material for inclusion in the record.20
      Following the DOL hearing officer’s decision affirming the rejection of the
employee’s claim, she again has several appeal rights. She either has one year to submit
additional information to support her request for reconsideration or she has 90 days to
appeal the decision to the DOL Employees’ Compensation Appeal Board (ECAB). The
employee chooses to request reconsideration.
      Following the denial of her request for reconsideration, the employee exercises her
right to appeal the decision to the ECAB. Because she chose to have a hearing, request
reconsideration and appeal to the ECAB, the DOL appeals process lasted over two years
before a final resolution was reached.




      20
           20 CFR 10.617(e).

                                           Page 8
Merit Systems Protection Board - Legal Authority and Procedure


      The MSPB is an independent Agency in the Executive branch. The MSPB was
established by the Civil Service Reform Act of 1978, which replaced the Civil Service
Commission with three new independent agencies: the Office of Personnel Management,
the Federal Labor Relations Authority and the MSPB.
      After a lengthy procedure which led to the employee’s removal, she elected to file
an action contesting her removal before the MSPB, in addition to all of her previously
discussed claims. Because her Agency’s personnel handbook contained a table of
penalties that required progressive discipline, the employee was subject to discipline prior
to any removal action.21 The Civil Service Reform Act requires written notice and an
opportunity to respond both orally and in writing to proposed discipline. For each of the
employee’s suspensions for 14 days or less, she was entitled to advance written notice
stating the specific reasons for the proposed action and a reasonable time to answer orally
and in writing, and to furnish affidavits and other documentary evidence in support of the
response, representation by an attorney or other representative and a written decision.22
When the employee was removed, the Agency was required to serve her with 30 days
advance written notice.23 Prior to removing the employee from her position, her Agency
was required to allow her at least seven days to answer orally and in writing and to offer
evidence in support of her response.24 The employee was allowed to be represented by
an attorney or other representative.25 Following this procedure, the Agency issued a


      21
           See Douglas v. VA, 5 MSPR 280, 5 MSPB 313 (1981).
      22
           5 U.S.C. Section 7503.
      23
         5 U.S.C. Section 7513(b)(1). The thirty day notice also applies to employees
subject to suspension of more than 14 days, reduction of grade or pay, and/or furlough
of 30 days or less. 5 U.S.C. Section 7512.
      24
           5 U.S.C. Section 7513(b)(2).
      25
           5 U.S.C. Section 7513(b)(3).

                                           Page 9
written decision that included specific reasons for the removal action.26
       The employee appeals her removal to the MSPB within 20 days of receiving the
removal decision.27 Because the employee claimed the removal involved discrimination,
the MSPB is authorized to decide the discrimination issue, while the employee appeals
the remaining discrimination allegations to the EEOC.28 Upon receipt of the appeal, the
MSPB assigns the case to an administrative judge who issues a scheduling order and the
Agency response file is due within 20 days of the date of the order.29 Within 15 days of
the date of the scheduling order, any pre-trial motions or discovery are generally due.30
The Agency is generally required to initiate settlement negotiations within 35 days of the
scheduling order.
       At the employee’s request, the MSPB administrative judge holds a hearing and
issues an initial decision in favor of the Agency which becomes final if neither party files a
petition for review with the three member MSPB panel within 35 days.31 In cases involving
discrimination, the MSPB is required to issue a decision within 120 days.32 There is no

       26
            5 U.S.C. Section 7513(b)(4).
       27
         5 U.S.C. Section 7513(d). Other Agency personnel actions that Federal
employees may appeal to the Board include, suspensions of more than 14 days,
reductions in grade or pay, and furloughs of 30 days or less, performance based
removals or reductions in grade, denials of within-grade increases, certain reduction-in-
force actions, denials of restoration to duty or reemployment rights, and removals from
the Senior Executive Service for failure to be recertified. Determinations by OPM in
employment suitability and retirement matters are also appealable through the MSPB.
5 CFR Section 1201.22 (appeal must be filed by the later of effective date or date
received)
       28
            5 U.S.C. Section 7702(a).
       29
            5 CFR Section 1201.25.
       30
            5 CFR Section 1201.73(d).
       31
         The Agency has no statutory right to a hearing. 5 C.F.R. Section 1201.24(d).
The AJ decision becomes final on the later of 35 days after the date of the decision or
within 30 days after the date received unless appealed with the 3 member board.
       32
            5 U.S.C. 7702(a)(1).

                                           Page 10
penalty or sanction against the MSPB for its failure to comply with that time limit.33 During
fiscal year 1999, the average time to process an appeal by an administrative judge was
100 days.34
       The employee files her appeal with the three member MSPB panel. The average
processing time for appeals to the three member MSPB panel during fiscal year 1999
totaled 222 days.35 Following an adverse ruling by the MSPB panel, the employee
appeals the decision to the Court of Appeals for the Federal Circuit within 60 days.36 The
case can remain pending before the Court of Appeals for the Federal Circuit for several
months. The Court of Appeals for the Federal Circuit affirms the MSPB decision and the
employee appeals this decision to the U.S. Supreme Court which rejects her case.


Disadvantages with Current Process


       I. Delay
       The agencies processing claims are bound by few statutory or regulatory time
frames in which to complete their work. Generally, the administrative process is lengthy
and duplicative. It may take several years for the complaint to be adjudicated if either the
employee or Agency elects to appeal the claim through all available routes and waits until
the deadline to file each appeal. For example, the employee may wait up until one year to
request reconsideration of a DOL decision. EEOC claims will take even longer because


       33
         Moye v. VA, 10 MSPR 448 (1982); The MSPB generally runs the fastest
process, often meeting the 120 day limit from the date the case is filed, to issuing a
decision.
       34
            21st Annual Report of the MSPB.
       35
            21st Annual Report of the MSPB.
       36
        5 U.S.C. Section 7703. Exceptions include appeals of MSPB decisions in
mixed cases in which the discrimination issue is appealed. Such cases may be
appealed to an appropriate U.S. district court. Also, Hatch Act cases involving State or
local Government employees may be appealed to the U.S. District courts.

                                          Page 11
the process can involve an investigation, depositions, interrogatories, document requests,
a hearing and a duplication of this entire process if the claim is filed in Federal court.
       This delay is problematic because, in tight fiscal situations, managers may be
unable to commit resources to replace the removed employee until a final decision is
reached. The delay creates disillusion for the remaining workforce and allows employees
to abuse the system and use the delays as a bargaining tool to effect a settlement. This
subverts the purpose of protecting honest and hardworking members of the Federal
workforce. The delay also supports the public perception that it is impossible to take
action against a Federal employee.
       Delay is also detrimental for employees with legitimate claims. Employees are
required to wait an unreasonable time for justice. Employees with legitimate claims may
be subject to the perception that their claim is spurious.


       II. 	    Use of Progressive Discipline May Not Be Used in Cases With
                Multiple Administrative Proceedings


       A recent case issued by the U.S. Court of Appeals for the Federal Circuit may
decrease the use of progressive discipline. When determining appropriate discipline,
supervisors are required to consider various factors known as the “Douglas factors.”37
The Douglas factors were identified in a case before the MSPB in which the board
discussed its authority to mitigate penalties. These factors include the employee’s past
disciplinary record. When determining the appropriate discipline for an offense, the
Federal Circuit held that supervisors may not consider disciplinary actions that are subject
to ongoing challenges.38 Although the court did not identify the types of challenges
covered by its rule, the Court was dealing with a case with prior actions that were still in



       37
            See Douglas v. VA, 5 MSPR 280, 5 MSPB 313 (1981).
       38
         Gregory v. United States Postal Service, 212 F.3d 1296 (Fed. Cir. 2000), cert
granted, 121 S.Ct. 1076, 148 L.Ed2d. 954 (2001).

                                           Page 12
the administrative grievance process. Therefore, this rule would apply to prior actions on
appeal to the MSPB, Federal Circuit Court of Appeals, U.S. Supreme Court, or those in
the negotiated grievance/arbitration process. Courts may possibly apply this rule to
matters pending before the EEOC and DOL.39 Because appeals may take years to work
its way through the administrative process, supervisors will not be able to rely upon prior
discipline under appeal when determining the appropriate penalty for a current offense.
Accordingly, the supervisor may not be able to take progressive discipline.


       III. Duplication of Effort - Fragmented Jurisdiction


       Because several different agencies can adjudicate claims for different remedies
involving substantially the same set of facts, both the employee and the Agency are often
required to submit the same information to several different government agencies. Each
government Agency has promulgated its own regulations with different formats for the
information submitted. The resulting duplication of effort taxes the resources of the
Agency. The employee and his or her Agency are continually burdened with submitting
information to the various forums to comply with competing deadlines.
       In addition, the employee, management and witnesses can be required to testify
more than one time in the different forums about the same set of facts. For example, in an
EEOC case, employees are required to provide a sworn statement to an investigator,
testify at a hearing held before the EEOC and testify again at a trial if the employee files
an action in Federal court. The trial before the Federal Court is essentially the same
proceeding which occurred before the administrative tribunal. In addition to repetitive
testimony, both parties are burdened with duplicate pre-trial obligations. Prior to the
hearing and trial, the parties are involved in depositions, interrogatories, and document



       39
          The Federal Court of Appeals has declined to extend this rule to actions
challenged before EEOC as discriminatory reasoning that it is a collateral attack on the
validity of the disciplinary action itself. Blank v. Dep’t Army, 247 F.3d 1225 (CAFed.
2001).

                                          Page 13
production. Allowing a new trial in Federal court also undermines the usefulness of the
administrative EEOC process.


      IV. No Recourse for Claims Without Merit


      There is no recourse for the Agency in the event an employee files a claim without
merit with an administrative Agency. There is also no prohibition against an employee for
forum shopping or filing claims with the EEOC, DOL and MSPB based on the same set of
facts. The employee is not obliged to pay any costs or fees relating to these administrative
processes. While false statements on government forms may be prosecuted in a criminal
proceeding, claims without merit may not rise to this level and thus go unpunished.
Dubious and duplicate claims congest the system and delay justice for meritorious claims.


      Furthermore, meritless claims are costly to the government because it is often more
economical for the government employer to offer a cash settlement to the complaining
employee rather than expend resources and defend the claim. Employees do not pay a
filing fee for filing a claim with EEOC, DOL and MSPB. The Agency is responsible for
providing for an investigation in EEOC matters which is often performed by contract
investigators. Following a hearing before the EEOC the Agency must pay for transcripts
and provide a free copy for the employee. In addition the Agency must absorb costs of
Agency management and lawyers.



                                       SOLUTION


      The myriad of forums available for different legal remedies for complaints based on
the same set of facts pose problems for both Agency management and the complaining
employee. Employers and employees would be better served with a consolidation of
employment law forums for Federal sector employees, simplification of procedures and
imposition of time limits for processing cases. Economy and efficiency would be


                                         Page 14
increased with a consolidation of forums. Duplication of effort would be eliminated.
Processing time will decrease because the parties are not burdened with waiting for the
resolution of several appeals that may be pending in the various forums currently
available. A timely resolution to these issues would benefit both the employer and
employees.40 These proposed changes are discussed more fully below. A chart outlining
the procedures and time limits is attached as Appendix B.


       I. Consolidation of Forums


       It is proposed that all Federal employee administrative proceeding complaints be
adjudicated by one administrative Agency. Currently, several different agencies
adjudicate claims. Proceedings involving work injuries are currently adjudicated by the
DOL, appealable personnel actions are adjudicated by the MSPB, and discrimination
claims are processed by the employee’s Agency, the EEOC and Federal Courts.
Employees would be required to raise all claims that occurred prior to the filing date,
whether they constitute alleged discrimination, disputed personnel action or injury. All
claims arising out of the same set of facts should be adjudicated during the same
proceeding. To avoid creating another new Federal Agency, these types of claims could
be transferred to an existing Agency. The Office of Personnel Management (OPM), which
adjudicates other employee benefit issues, could administer these additional employment
issues. The structure of OPM would have to be changed to accommodate the additional
responsibilities. Employees currently involved in the adjudication process of MSPB,
OWCP, and Federal sector EEOC claims could transfer to OPM.
       The consolidation of forums, in part, resembles the Civil Service Commission



       40
         Through its 1999 regulatory revisions, the EEOC has recognized that the
process was inefficient with too may layers of review. The EEOC’s revised regulations
include alternative dispute resolution, mandatory counselor training, and additional
bases for the dismissal of complaints including control of fragmented claims. Early
indications show that the changes have only produced limited benefits.

                                          Page 15
(CSC) which prior to the 1978 Civil Service Reform Act, was responsible for Federal
sector equal employment opportunity programs, policies and complaints and various other
personnel functions. Certain functions of the CSC were disbursed to other agencies
because there was a belief that the CSC’s responsibilities as the personnel policy arm of
the executive branch undermined its credibility as an impartial arbitrator of employment
disputes. However, the 1978 Civil Service Reform Act and subsequent transfers of
Federal sector equal employment opportunity programs, policies and complaints did not
alleviate this concern because the transfer entailed both policy development and
complaint processing. The EEOC currently reviews Agencys’ OEO programs and
adjudicates claims against the Agency. Additionally, as explained below, employees
would still maintain their rights to appeal any decision in Federal court, which should
rectify any alleged credibility concerns.
       One benefit of a consolidation of forums is economies of scale that would result in
eliminating duplicate management and support staff. Also, employees would benefit from
a single forum because there is less chance for confusion if the employee has only one
place to file a claim. Both employees and management will benefit from presenting
information once instead of in several different formats to multiple agencies and
complying with differing deadlines. A consolidation of forums will also improve efficiency
of the government as it will eliminate the ability of employees to forum shop.


       II. One Claim Adjudicator


       All claims related to the government employee’s employment would be adjudicated
by an Administrative Law Judge (ALJ). ALJs serve as independent, impartial triers of fact
in formal hearings similar to trial judges who conduct civil trials without a jury. ALJs
decisions are afforded statutory protection from undue Agency influence. One claims
adjudicator will enhance the consistency of decisions. Currently, administrative judges
adjudicate claims brought before the EEOC and the MSPB. Claims before the DOL are
adjudicated by claims examiners and hearings officers. Other Federal agencies, such as


                                            Page 16
the Social Security Administration, use an ALJ to adjudicate claims.
       An ALJ would be well suited to adjudicate the breadth of issues resulting from a
consolidation of forums. An ALJ must meet rigorous qualification standards. Applicants
must be attorneys and have a minimum of seven years of administrative law and/or trial
experience involving formal administrative proceedings before local, State, or Federal
administrative agencies, courts or other administrative bodies. In addition, applicants
must demonstrate that they have had two years of qualifying experience at a level of
difficulty and responsibility characteristic of a Federal government attorney actively
involved in administrative law and/or litigation work at the level of at least senior level GS-
13, or one year characteristic of at least GS-14 or GS-15.


       III. Simplified Procedures


       Pre-complaint administrative proceedings by the employing Agency would be
transferred to OPM. Currently, after an employee files an EEOC complaint, the employing
Agency assigns a co-worker as a counselor to meet with the complainant and
management independently to resolve the complaint. Although efforts are made to
ensure that the co-worker who serves as a counselor is impartial, both the employee and
management may not perceive another co-worker to be unbiased. Because the counselor
works in the same Agency, it is likely that the counselor will have some knowledge about
the individuals involved. As a result, the counselor may enter the assignment with a bias
which undermines his or her effectiveness. Also, most counselors are assigned
counseling duties as collateral duties and following their efforts will resume working in the
same Agency. Such a situation does not lend itself to an effective resolution. A more
effective resolution would likely be obtained if the counselor had no potential for bias and
was not employed by the Agency in which the complaint arises.
       Currently, in an EEOC proceeding, if counseling does not resolve the problem, the
Agency investigates the complaint. Administrative proceedings such as Agency
investigations would no longer be necessary because an Administrative Law Judge would


                                           Page 17
preside over the process and oversee any investigation. Investigations would be
conducted through discovery procedures in which the Federal Rules of Civil Procedures
control. Parties would be required to complete any discovery and pretrial motions within
90 days of the filing of the complaint. An Administrative Law Judge would preside over
the hearing and would be required to issue a decision within 60 days. An Administrative
Law Judge would likely be perceived more favorably by both the complaining party and
the Agency. Currently, agencies usually hire contract investigators. The complaining
employees may perceive an Agency hired investigator to favor management. The Agency
management, however, is not usually involved in the investigator hiring process. Rather,
the Agency’s OEO office typically hires the contract investigators. Therefore, Agency
management may perceive the contractor as having a bias in favor of the employee.




      IV. One Appeal Right


      Following the decision by the ALJ, both parties should be allowed an opportunity to
appeal the decision through the Federal court system without expanding legal rights. For
instance, there is no right of appeal through the Federal court system for DOL cases. A
new right of appeal would not be created. For proceedings that already may be appealed
through the Federal court system, such as MSPB and EEOC, there would be changes to
the appeal process. Similar to MSPB appeals, the appeal should be based on the record
developed before the ALJ rather than a new trial. Because the parties would have an
opportunity for a hearing before the ALJ, parties to EEOC proceedings would not be
allowed a new trial in Federal court. This would align the EEOC process with private party
proceedings. Currently, parties to Federal employee EEOC proceedings are allowed to
present their case to an investigator who makes findings, before an EEOC administrative
judge and again in Federal Circuit court. There is no reason to allow Federal parties three
different opportunities to develop a factual record. Federal employees who file an EEOC
claim, therefore, are afforded more rights than private sector employees. In private sector


                                         Page 18
EEOC cases, the EEOC is not the adjudicator of complaints. Instead, the EEOC
investigates and sues on behalf of the employee or issues a right to sue letter to the
employee.
       Similarly, MSPB procedures would be streamlined. Employees in an action
appealable to the MSPB are given several different opportunities to develop facts. In
response to an appealable action, employees are afforded an opportunity to reply both in
writing and orally.41 In addition, Agencies may also provide a hearing for the employee.
Current statutes also allow employees a right to a hearing before a MSPB administrative
judge, even if there is no issue of fact.42
       Multiple opportunities to create a factual record are unnecessary and create undue
delay. The parties should be given one opportunity to fully develop the facts and be
required to appeal that record. This change would allow the process to more closely
resemble other legal proceedings.
       The parties should be allowed 30 days to appeal any ALJ decision to the Court of
Appeals for the Federal Circuit. Any decision rendered by the Court of Appeals for the
Federal Circuit could be appealed to the United States Supreme Court.


       V. Required Statutory and Regulatory Changes


       A consolidation of forums would require substantial statutory and regulatory change.
Numerous statutes and regulations govern the EEOC, DOL and MSPB process for Federal
employees. The EEOC process involves 10 sections of statutes and 45 sections of
regulations.43 Parties to DOL proceedings are bound by over 50 sections of statutes and




       41
            5 U.S.C. 7513(c), 5 CFR 752.404(g).
       42
            5 U.S.C. 7701(a)(1).
       43
      See 42 U.S.C. Section 2000e, 29 U.S.C. Sections 791, 794, 794a, 794d, 29
CFR Part 1614.101-1614.607

                                              Page 19
over 200 sections of regulations.44 MSPB statutes consist of almost 20 sections and over
100 sections of regulations.45 Current EEOC, DOL and MSPB regulations would need to
be rescinded and one consolidated set of regulations that address Federal employee
complaints would need to be issued. Because the Federal Rules of Civil Procedure would
bind the parties, statutory and regulatory changes would not have to restate the process
for the commencement of an action, service of process, pleadings, motions, depositions,
discovery and trials.


                                      CONCLUSION



       The current process for resolving Federal sector employee complaints is replete
with duplication of effort and delay. As a result, the employee and the Agency are
needlessly burdened and meritorious claims are not resolved in a timely manner. Also, the
current process carries few consequences for an employee with a dubious claim who
seeks relief in every available forum hoping for a mistake in the process to exploit. To
such an employee, the process is like the lottery in that the more tickets he or she buys (or
cases filed or appealed), the greater are his or her odds of success. This is contrary to the
typical notions of justice which gives injured parties one change to prove their case. A
consolidation of the administrative forums and claims would benefit both employees and
the Agency, albeit changing all these forums would require a herculean effort necessitating
numerous legislative changes. As a result of reorganizing the current process, duplication
will be minimized and claims will be processed more timely and efficiently. There are
many possible ways to reorganize the current system. While the solution proposed herein
represents the view of the authors, there may be other feasible alternatives available. This
paper is meant to generate a meaningful discussion to resolve the issues which are of
great importance to both government management and employees.


       44
            See 5 U.S.C. Sections 8101-8151, 20 CFR Part 1.1-10.826
       45
            See 5 U.S.C. Sections 7501-7543, 5 CFR Part 1200.1-1201.205

                                          Page 20
     MERIT SYSTEMS PROTECTION                    EQUAL EMPLOYMENT OPPORTUNITY                               DEPARTMENT OF LABOR
     BOARD - Appeal of Removal from Job          COMMISSION - Claims of Discrimination,                     Appeal of Denial of
                                                  Reprisal and Violation of the RehabilitationAct           Occupational Injury Claim



 MSPB                                                     EEOC                                           DOL Process
 Appeals                                                                     45
                  20                                                        Days
                 Days              Alternative
                                   Dispute               Counseling
 Agency                                                  W/ Agency                                        Agency                45
                                   Resolution                                                             Contests
 Response                          File                  EEO                                                                   Days
 File                                                                                   30                Continuation of
                                                                                       Days               Pay
                  5
                 Days                                 Final Interview &
 Discovery/                            180            Notice of Right to                                                              Request
 Motions                               Days           File of Formal                                                                  Reconsideration
                                                      Complaint                                            DOL
                  10
                 Days                                                                                      Decision
                          Federal                                                                                                  30
Settlement
                          Court                          Formal                                                                    Days
Negotiations
                          Complaint                      Complaint

                                                                                                                                           90
                                                                                                             Hearing                       Days
  Hearing                                              Agency's Written
                           Court of Appeals            Acknowledgement                Dismissal
                           For the Federal                                                                                              Employee's
                           Circuit                                                                                           1          Compensation
  Initial                                                                              Appeal to                            Year        Review Board
  Decision                                                Agency                       OFO
                  35                                      Investigation
                 Days      U.S. Supreme Court
                                                                                                         Reconsideration

Petition for
Review                                                    Notice of
                                                          Investigation
                                                          Complete
                                                                                          30               Employee's
MSPB Board                                                                                Days             Compensation
Decision                                                                                                   Review Board
                                                         Hearing Request
                    30
                   Days
Court of
Appeals                                                       Hearing
for the
Federal
Court                                                   Admin. Judge Decision
                                                                                               40
                                                                                              Days
 U.S. Supreme                                             Agency Final
 Court                                                    Order
                                                          Implementing
                                                          AJ Decision
                                                                                                30
                                                                                               Days
                                                       Employee Appeal
                                                       To OFO
                                                                                                30
                                                                                               Days

                                                       Employee Brief Due
                                                                                                   30
                                                                                                  Days
                                                       Agency Brief Due


                                                        OFO Decision



                                                             Request for
                                                             Reconsideration



                                                          EEOC Decision
                                                                                                90
                                                                                               Days
                                                          Federal Court
                                                          Complaint - Trial de novo



                                                          Court of Appeals for
                                                          The Federal Circuit



                                                          U.S. Supreme Court
PROPOSED PROCESS
                                        Appendix B


   Discipline, Work Injury,
   Equal Opportunity,
   Complaints;
   Assignment of ALJ at
   OPM




          Discovery/
           Motions


                              90 Days


             Hearing



                              60 Days



           ALJ Decision



                              30 Days




       Court of Appeals
       for the Federal
       Circuit



                              1 Year




         U.S. Supreme
         Court
